              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




       Audit Report


      Management Controls over the
      State Energy Program's Formula
      Grants




OAS-M-06-05                                 April 2006
meaningful performance metrics to determine the cost benefit of the Program in meeting
its goals. Furthermore, it is unclear at this time how a recent reorganization of EERE's
field structure will impact monitoring of the Program.

                                        Monitoring

EERE Regional Offices were not regularly visiting State Energy Offices to monitor the
use of funds or the results of Program activities. We reviewed monitoring reports from
four of the six EERE Regional Offices and found that the latest visits varied among State
Energy Offices from less than one year to nearly five years ago. We also found that
monitoring visits rarely reviewed State financial controls over Program funds.

Although the Department did not implement controls to monitor the States' use of funds
or Program accomplishments, nothing came to our attention during our visits to six States
to indicate that they were not spending funds for their intended purpose. For example,
we found that each of the States had used grant funds, together with State funds, to
support their State Energy Offices. These offices prepared and coordinated State energy
plans, conducted outreach activities, such as sponsoring or conducting workshops,
identified energy cost savings opportunities, and performed energy assessments. States
also used grant funds to support projects such as the demonstration and evaluation of
energy saving technologies. We also noted that expenditures of Program funds were
covered in the States' Single Audit Act audits required by Office of Management and
Budget Circular A-133.

Additionally, we found indications that the six States had established financial controls
over the funds. For example, States maintained separate accounts to track the use of
Program funds. Additionally, we found that States implemented controls to ensure that
expenditures of Federal funds for Program activities were supported with invoices and
other supporting documentation.

                                   Performance Metrics

While we concluded that the States were spending funds consistent with the broad goals
of the Program, we found that the Department had not established or collected
meaningful performance metrics to evaluate the cost benefit of the Program. Although
the Program is intended to contribute to percentage improvements in energy efficiency
called for in the State Energy Efficiency Programs Improvement Act of 1990 and the
Energy Policy Act of 2005, the Department has not identified specific improvements
expected directly from the Program.

Furthermore, while States are required to provide estimates of energy savings in annual
plans supporting grant applications, the Department did not validate or compare actual
results to those planned. For example, States estimate energy savings expressed in
British thermal units (Btu) from planned activities in their annual plans. However,
representatives from the State Energy Offices that we visited told us that they were not
confident in the estimates and did not always use them to measure performance.



                                             2
To its credit, EERE has attempted to measure program accomplishments through periodic
studies by the Oak Ridge National Laboratory (ORNL). The most recent study
conducted in 2004, concluded that "the energy efficiency and renewable energy activities
performed by the States and territories have resulted in substantial energy and cost
savings and emissions reductions." The study, however, did not differentiate between the
Program's contributions and those occurring from other influences in reporting outcomes.
It also relied on savings estimates based on information provided by the States. ORNL
recognized that the savings estimates contain a degree of uncertainty. Furthermore,
EERE officials told us that they recognize the need for more definitive, quantifiable
performance metrics and are working to develop them in conjunction with the States.

                                    Program Guidance

Although EERE's State Energy Program Operations Manual calls for Regional Offices
to perform at least one formal site visit to each State per year, EERE did not ensure that
the Regional Offices followed this guidance. Furthermore, although the Department is
currently consolidating the six EERE Regional Offices at the National Energy
Technology Laboratory and the Golden Field Office, it had not specified how it will
assign responsibility for or staff the Program monitoring function within these entities.

Regarding the collection and establishment of meaningful performance metrics, the
Department did not provide adequate guidance to the States for measuring program
accomplishments. Specifically, the Department relied on estimated Btu savings by the
States to measure performance which did not always provide realistic estimates of
program accomplishments. For example, most States have education and outreach
components to their Program activities; however, none of the States we reviewed had an
accurate method of determining energy savings that could result from these activities.
The representatives stated that the Btu-oriented metrics used by the Department were not
always useful in describing program results. Several State representatives told us that
they were developing performance metrics for reporting to their State legislatures.

                                     Program Results

Without improvements in monitoring and the establishment and collection of realistic
performance metrics, the Department is unable to determine the cost benefit of its yearly
investment of approximately $40 million in Program activities. Improved monitoring and
performance metrics would help ensure that available Federal funds will be directed
toward the most cost-effective energy efficiency programs. For example, we noted
during our audit that several States have accumulated large unused balances in grant
awards, including nine States that had accumulated balances representing over two years
of grant funds made available to them. Program officials stated that they are monitoring
the States' use of funds and are working with the States to reduce large accumulated
balances.




                                             3
RECOMMENDATION

   1. We recommend that the Assistant Secretary for Energy Efficiency and Renewable
      Energy:

          (a) Specify the monitoring responsibilities and staffing of the State Energy
              Program mission at the re-organized EERE field sites;

          (b) Implement regularly scheduled monitoring visits that address
              administrative, financial, and programmatic areas; and,

          (c) Complete work with the State Energy Offices to design appropriate
              quantifiable performance measures in order to determine the cost benefit
              of the State Energy Program.

   2. Because of the increasing energy challenges facing the nation and the limited
      amount of Federal funds available to address those challenges, we further
      recommend that the Assistant Secretary use the results of improved performance
      measures to re-evaluate the cost benefit of the State Energy Program.

MANAGEMENT REACTION

In responding to a draft of this report, management agreed with our recommendations and
stated that corrective actions will be implemented. Management's comments, which are
provided in their entirety in Appendix B of the report, were responsive to our
recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Chief of Staff




                                           4
                                                                       Attachment

OBJECTIVE

To determine whether the Department had implemented controls to (a) ensure
grant funds were used for their intended purpose, and (b) determine the
cost-benefit of the program in meeting its goals.

SCOPE

The audit was performed between February and April 2006 at EERE's
Headquarters, Washington, D.C.; Central Region Office, Golden, Colorado;
Southeast Regional Office, Atlanta, Georgia; and Mid-Atlantic Regional Office,
Philadelphia, Pennsylvania. In addition, audit work was performed at the State
Energy Offices in Denver, Colorado; Tallahassee, Florida; Atlanta, Georgia;
Boise, Idaho; Harrisburg, Pennsylvania; and Salt Lake City, Utah.

METHODOLOGY

To accomplish the audit, we:

   •   Obtained and reviewed applicable laws, regulations, strategic plans, and
       guidance;

   •   Interviewed Department representatives at EERE's Headquarters and three
       Regional Offices and State Energy Office representatives at six States;

   •   Tested Regional Offices to determine whether they were conducting site
       visits and performing financial reviews of grant recipients;

   •   For the six States reviewed, tests were conducted to determine whether:

            Grant applications met mandatory requirements;

            States complied with grant provisions such as the requirement for a
             20 percent matching cash or in-kind contribution and the ceiling on
             office supplies, library materials, and equipment not to exceed
             20 percent of the State's annual Federal award;

            Funds were used for prohibited activities such as purchasing land or
             buildings and conducting research, development, or demonstration of
             techniques and technologies not commercially available;

            States established financial controls over grant funds;

            Funds were being used for their intended purpose; and,

            Periodic financial and program reports were submitted.
  •   Reviewed the results of State audits conducted in accordance with the
      Single Audit Act and Office of Management and Budget Circular A-133
      Audits of States, Local Governments, and Non-Profit Organizations.

The audit was conducted in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls
and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our
audit. We reviewed goals and performance measures applicable to the State
Energy Program as required by the Government Performance and Results Act of
1993. We relied on computer-processed data to accomplish the audit objective.
When appropriate, we performed limited test work of data reliability during our
audit and determined that we could rely on the computer-processed data.

We discussed the results of this audit with EERE on April 21, 2006.




                                      2
                                                                 Appendix A


                                Audit Report on
                        "Management Controls over the
                    State Energy Program's Formula Grants"


                              Table of Contents


Program History                                                               1

Program Funding                                                               2

Limitations and Restrictions on Use of Program Funds                          3

Program Grant Award Process                                                   4

Program Oversight                                                             5

1. Schedule 1 – State Energy Program Formula Grant Allocations
                Fiscal Years 2004 to 2006

2. Schedule 2 – Program Activities at States Visited
State Energy Program

                                     Program History

The State Energy Program (Program) was established to promote energy conservation
and efficiency and reduce energy demand by developing and implementing
comprehensive State energy conservation plans supported by Federal financial and
technical assistance.

The Program was formed in 1996 by consolidating the State Energy Conservation
Program (SECP) and the Institutional Conservation Program (ICP). The SECP had
provided State funding for a variety of energy efficiency and renewable energy activities.
The ICP had provided schools and hospitals with a technical analysis of their buildings
and the installation of energy conservation measures identified in that analysis.

The SECP was created under the Energy Policy and Conservation Act during the energy
crisis of the early 1970s. Events during that period increased the nation's awareness of its
dependence on foreign oil and the need to lessen this dependence. Congress responded
with legislation that established a broad range of conservation programs, provided
support for the development of new and more efficient sources of energy, and established
the Department of Energy (Department) to lead and administer the effort.

The SECP was expanded in the Energy Conservation and Production Act of 1976, which
added a supplemental State Plan to the base plan established through the earlier law. In
1983, SECP experienced further growth when it was allocated funds under the Warner
Amendment (P.L. 95-105). These new monies came from refunds collected by the
Federal government from oil companies that had overcharged for petroleum and
petroleum products. Passed on to the States as Petroleum Violation Escrow (PVE) funds,
the new monies stimulated the States to expand programs and create new ones to get
consumers to develop more efficient energy habits. Additional funds began flowing into
energy conservation programs as a consequence of the Exxon and Stripper Well
settlements in 1986.

As a result of the funding infusions in the 1980s, energy-saving strategies and programs
grew and evolved in complexity. A host of information, education, and technology
demonstration activities were added to mandatory activities to meet the needs of various
consumer groups.

State-based energy conservation and efficiency programs were further developed by
passage of the State Energy Efficiency Programs Improvement Act of 1990
(P.L. 101-440) and the reorganization of the Department's Office of Energy Efficiency
and Renewable Energy (EERE). The Act encouraged States to undertake activities
designed to improve energy efficiency and stimulate investment in and use of alternative
energy technologies. It also invited States to venture into energy technology
commercialization services programs.




                                             1
                                     Program Funding

The Program is funded through several sources that include Congressional
appropriations, State matching funds, PVE funds, and any income the Program's
activities can generate. Congressional funds available to the Program are allocated to the
50 States, U.S. Territories, and the District of Columbia (States) through noncompetitive
formula grants.

Annual appropriated funds have ranged from a low of $25.6 million in Fiscal Year
(FY) 1996 to a high of almost $44.6 million in FY 2003. Total Congressional funds
available to the program are allocated to States according to the following formula:

   •   If available funds equal $25.5 million, such funds are awarded to the States based
       on allocations (as described in 10 CFR 420.11) from the two programs, SECP and
       ICP, that were combined to form the Program;

   •   If the available funds for any fiscal year are less than $25.5 million, then the base
       allocation for each State will be reduced proportionally;

   •   If the available funds exceed $25.5 million, $25.5 million will be allocated as
       specified above and the amount in excess of $25.5 million will be allocated as
       follows:

              One-third of the available funds divided among the States equally;

              One-third of the available funds allocated on the basis of the population of
               the participating States as contained in the most recent reliable census data
               available from the Bureau of the Census, Department of Commerce, for all
               participating States at the time the Department needs to compute State
               formula shares; and,

              One-third of the available funds allocated on the basis of the energy
               consumption of the participating States as contained in the most recent
               State Energy Data Report available from the Energy Information
               Administration.

Program funds awarded by States for FYs 2004, 2005, and 2006 are detailed in
Schedule 1.

                  Limitations and Restrictions on Use of Program Funds

Recipients of Program funds are subject to limitations and restrictions on fund use. In
addition, States must contribute to program costs.

Specifically, a State's spending on office supplies, library materials, and equipment for
Program activities is limited to no more than 20 percent of the State's annual Federal
award. The limit does not apply to supplies, library materials, and equipment that are

                                             2
integral to a program activity, such as brochures distributed as part of an education
program or equipment used in preparing a demonstration.

The Program also places restrictions on the types of projects that can be performed.
Some projects are prohibited, depending on the source of funds. For example, States are
prohibited from using Program financial assistance to:

   •   Build mass-transit systems or exclusive bus lanes, or for the construction or repair
       of buildings or structures;

   •   Purchase land, buildings, or structures, or any interest therein;

   •   Subsidize fares for public transportation;

   •   Subsidize utility rate demonstrations or State tax credits for energy conservation
       or renewable energy measures; and,

   •   Conduct, or purchase equipment to conduct research, development, or
       demonstration of energy efficiency or renewable energy techniques and
       technologies not commercially available. (However, demonstrations of
       commercially available energy efficiency or renewable energy techniques and
       technologies are permitted.)

In addition, the Program places restrictions on the purchase and installation of equipment
and materials for energy efficiency and renewable energy measures, including reasonable
design costs. States can only use Program funds for these activities if certain conditions
are met, such as the activities are not for buildings owned or leased by the Federal
government and do not supplant weatherization activities under the Weatherization
Assistance Program for Low-Income Persons.

Furthermore, States and subrecipients of Program funding, such as subgrantees and
contractors, are subject to applicable federal cost principles for determining allowable
costs and expenditures. Federal cost principles contain basic guidelines for determining
the allowability of selected items of cost, distinguishing between direct and indirect costs,
and allocating shared costs across programs.

In addition to these limitations and restrictions, Program regulations require that States
contribute cash, in-kind contributions, or both for Program activities in an amount
totaling at least 20 percent of the appropriated funds awarded to the State. For example,
the States contribution can consist of:

   •   Allowable costs incurred by the States, subgrantees, or cost-type contractors
       under applicable cost principles and verifiable from recipients records;

   •   Third-party in-kind contributions and costs borne by non-Federal grants;

   •   Contributions not reported as cost-sharing for any other Federally-assisted project
       or program; and,
                                            3
   •   Costs that are necessary and reasonable for proper and efficient accomplishment
       of project or program objectives and not paid for by the Federal government
       under another grant or award.


                              Program Grant Award Process

Before awarding Program funds to a State, the Department requires the State to submit a
State Plan that includes an annual Grant Application. The annual Grant Application
serves as a State's request for formula grant funding and defines how the State will use
allocated funds for the fiscal year. The application includes a list of mandatory and
optional activities and budgetary information on the activities to be undertaken together
with program implementation information. The mandatory program activities include:

   •   Lighting efficiency standards for public buildings;

   •   Activities that promote the use of car pools, van pools, and public transportation;

   •   Standards and policies affecting procurement practices;

   •   Thermal efficiency standards for new and renovated buildings;

   •   Traffic laws that permit right turns on red lights after stopping and left turns from
       a one-way to a one-way street; and,

   •   Procedures for ensuring effective coordination of programs within the State.

The State Plan contains a Master File which describes the State's energy efficiency goals
and the mandatory activities the State intends to undertake to achieve those goals. The
Master File also describes how mandatory activities have been or are being implemented
and how they are being or will be maintained. The Master File contains information that
generally does not change from year to year. The State is required to submit to the
Department an amendment to the Master File if the State plans to change any of the items
listed in the Master File.

Currently, the Department's six regional offices are responsible for reviewing the State
Plan including the Grant Application and Master File within 60 days of receipt from the
States. The scope of the regional offices' reviews include determining whether:

   •   Mandatory program activities required by implementing legislation were adopted
       and are being carried out effectively;

   •   Quantitative estimates of anticipated energy savings, where provided, are realistic
       and achievable;




                                             4
   •   Adequate attention has been given to project planning and management for
       effective program implementation and there is well-thought-out conservation plan
       that includes program evaluation and monitoring plans;

   •   New proposed program activities are a viable and cost-effective method of
       reducing energy consumption; and,

   •   State Plan complies with applicable Federal regulations.

After annual grant funds are awarded, each State is required to submit a periodic
Financial Status Report and a Program Status Report. The Financial Status Report
provides an accounting for grant funds. The Program Status Report provides information
such as details of the activities funded, milestone status, accomplishments, performance
outcome data collected, leveraged funds, outstanding issues, and variances from plans.
States are generally required to submit these reports 30 days after the end of each quarter
with final reports due 90 days after the end of the final quarter. In some cases, the
Department has permitted States to submit their reports on a semi-annual rather than a
quarterly basis.

                                    Program Oversight

EERE Headquarters and Regional Offices perform various oversight and support
functions during the post-award period. These functions include overseeing the
implementation of the Program, developing and implementing effective policies and
procedures, providing technical assistance and guidance, and analyzing State
performance reports on a periodic and continuing basis.

EERE Headquarters is primarily responsible for ensuring policy consistency for treatment
of States and subrecipients nationwide, resolving programmatic issues, and networking
with other Federal programs. Headquarters is also responsible for overseeing the
Regional Offices by monitoring, reviewing reports, assessing performance, and issuing
annual guidance for program direction and awarding funds. Headquarters' staff assigned
to the Program consists of three employees who devote full time to the Program and four
employees who provide support to the Program and other EERE programs.

EERE's six Regional Offices serve as the States' primary points of contact. In addition to
reviewing the State's annual grant application, the Regional Offices receive and analyze
periodic reports submitted by the States, resolve operating and administrative issues, and
provide technical assistance to the States. The Regional Offices are also responsible for
establishing a rapport and an effective dialogue to ensure good communication between
the States and the Department. Each Regional Office can develop its own procedures to
process and review periodic reports received from the States as well as follow-up
procedures for any problem areas identified.

Regional Office representatives are responsible for performing site visits of the States as
part of their oversight of Program activities. The Department's State Energy Program
Operations Manual calls for Regional Offices to perform at least one formal site visit to
each State per year, and any variation from annual visits requires justification and
                                             5
concurrence by Program Headquarters. The State Energy Program Operations Manual
describes the typical ̃monitoring visit as lasting from 1 to 3 days and may include
administrative, financial, and programmatic areas. The administrative review evaluates
the management system, the financial review examines business operations and
accounting practices for all sources of funds, and the programmatic review takes a look at
the State Plan. For example, the State Energy Program Operations Manual describes the
financial review as ensuring that procurement, payroll, and contracting procedures meet
applicable requirements, financial records are properly maintained and accurate,
inventory systems are reliable, and documentation is sufficient.

Effective July 1, 2006, EERE's Regional Offices will be realigned and consolidated into
two existing Department organizations – the Golden Field Office in Golden, Colorado,
and the National Energy Technology Laboratory in Morgantown, West Virginia.
Consequently, the six regional offices will be closed on June 30, 2006.

The Program relies on its computerized WinSAGA system (Systems Approach to Grants
Administration for Windows) as a data base to accumulate State Plans and budgeting,
financial, and program performance information. Most States input data directly into
WinSAGA. For the remaining States, the Regional Offices input data into WinSAGA
based on documentation provided by the States.




                                            6
                                                                   Schedule 1
                                                                   Page 1 of 2


              State Energy Program Formula Grant Allocations
                          Fiscal Years 2004 to 2006



     State/Territory       FY 2004          FY 2005            FY 2006
Alabama                     $ 707,000        $ 708,000          $ 543,000
Alaska                         342,000          351,000            264,000
Arizona                        645,000          659,000            500,000
Arkansas                       540,000          544,000            424,000
California                   2,977,000        2,953,000          2,269,000
Colorado                       678,000          685,000            540,000
Connecticut                    633,000          634,000            514,000
Delaware                       309,000          310,000            236,000
District of Columbia           290,000          290,000            223,000
Florida                      1,539,000        1,564,000          1,193,000
Georgia                        996,000        1,010,000            769,000
Hawaii                         322,000          324,000            246,000
Idaho                          360,000          361,000            274,000
Illinois                     1,797,000        1,769,000          1,456,000
Indiana                      1,042,000        1,048,000            837,000
Iowa                           612,000          617,000            494,000
Kansas                         557,000          560,000            442,000
Kentucky                       722,000          726,000            567,000
Louisiana                      895,000          872,000            657,000
Maine                          403,000          400,000            314,000
Maryland                       804,000          802,000            642,000
Massachusetts                  967,000          958,000            786,000
Michigan                     1,486,000        1,491,000          1,229,000
Minnesota                      903,000          911,000            745,000
Mississippi                    519,000          524,000            400,000
Missouri                       849,000          863,000            688,000
Montana                        348,000          335,000            257,000
Nebraska                       428,000          432,000            338,000
Nevada                         391,000          394,000            294,000
New Hampshire                  373,000          374,000            294,000
New Jersey                   1,240,000        1,232,000          1,005,000
New Mexico                     406,000          412,000            314,000
New York                     2,428,000        2,404,000          2,014,000
                                                                       Schedule 1
                                                                       Page 2 of 2


             State Energy Program Formula Grant Allocations
                         Fiscal Years 2004 to 2006



   State/Territory        FY 2004          FY 2005                 FY 2006
North Carolina              $ 1,004,000     $ 1,016,000               $ 787,000
North Dakota                    317,000         321,000                   246,000
Ohio                          1,669,000       1,674,000                 1,370,000
Oklahoma                        621,000         633,000                   491,000
Oregon                          576,000         577,000                   450,000
Pennsylvania                  1,753,000       1,706,000                 1,394,000
Rhode Island                    346,000         346,000                   272,000
South Carolina                  627,000         636,000                   486,000
South Dakota                    309,000         310,000                   238,000
Tennessee                       833,000         848,000                   660,000
Texas                         2,611,0000      2,663,000                 1,984,000
Utah                            445,000         448,000                   344,000
Vermont                         305,000         305,000                   238,000
Virginia                        977,000         983,000                   774,000
Washington                      810,000         806,000                   620,000
West Virginia                   479,000         482,000                   383,000
Wisconsin                       939,000         947,000                   773,000
Wyoming                         301,000         304,000                   228,000
American Samoa                  227,000         227,000                   170,000
Guam                            235,000         235,000                   177,000
Northern Marianas               226,000         226,000                   170,000
Puerto Rico                     539,000         543,000                   433,000
Virgin Islands                  243,000         247,000                   184,000
Total                      $43,900,000     $44,000,000              $34,640,000
                                                                             Schedule 2
                                                                             Page 1 of 7


                         Program Activities at States Visited

Colorado

Total Program formula grant funds awarded to Colorado for Program Year 2005 were
$685,000. Colorado's Program activities using formula grant funds and matching
non-Department funds included:

      Rebuild Colorado

             Continuing program designed to implement energy efficiency in Colorado
             buildings through performance contracting. Activities included providing
             workshops, newsletters, and other informational media and materials;
             performing energy audits; and developing programs to educate and
             encourage the public to support high performance design and energy
             management. (Program Year 2005 budgeted Program grant funds were
             $300,000 including carryover).

      Administration

             Program activities designed to facilitate the State energy office's efforts
             directly related to implementing and meeting Program goals. Specific
             activities include monitoring State programs for compliance with State
             plans, preparing contracts and monitoring contractual performance, and
             providing support for Special Project administrative activities. (Program
             Year 2005 budgeted Program grant funds were $139,140 including
             carryover).

      Geo-Digeste

             Program designed to demonstrate whether combining an anaerobic
             digester with a geoxchange heating and cooling system will optimize
             energy-efficiency in an animal feeding operation. Although both systems
             are available to the public, they had not been previously been integrated
             and evaluated for energy savings. (Program Year 2005 budgeted Program
             grant funds were $145,000 including carryover).

      Biomass

             Program designed to support biomass utilization of forest and urban
             woody waste, agricultural wastes, animal wastes, and grown-for-energy-
             conversion plantings within Colorado. Activities include forming
             coalitions, formulating plans, preparing educational materials and news
                                                                                  Schedule 2
                                                                                  Page 2 of 7


                 announcements, and conducting feasibility studies that will maximize
                 sustainability of biomass as an offset to foreign petroleum use within the
                 communities. (Program Year 2005 budgeted Program grant funds were
                 $90,000 including carryover).

Florida

Total Program formula grant funds awarded to Florida for Program Year 2005 were
$1,564,000. Florida's Program activities using formula grant funds and matching
non-Department funds included:

          Hydrogen Fueling Infrastructure

                 Program designed to accelerate development and market introduction of
                 hydrogen technologies in Jamestown and Boggy Creek. The fueling station
                 will accommodate operation and evaluation of hydrogen internal combustion
                 engine shuttle buses, permit comparison of differing hydrogen generation
                 technologies, and increase public awareness of hydrogen as a fuel source.
                 Activities include equipment commissioning, project evaluation, and a
                 community outreach meeting. (Program Year 2005 budgeted Program
                 grant funds were $1,718,528 including carryover).

          Hydrogen Internal Combustion

                 Programs designed to evaluate the use of hydrogen internal combustion
                 engines and fuel delivery systems. Specifically, this technology will be
                 installed in a shuttle bus and in an airport baggage carrier to evaluate
                 drivability, reliability, and performance. The program will also increase
                 public awareness of hydrogen as a fuel source. Activities include obtaining
                 airport security clearance, delivery of equipment, operator training, and
                 project evaluation. (Program Year 2005 budgeted Program grant funds
                 were $1,090,667 including carryover).

          Stationery Fuel Cells – Homosassa Springs State Wildlife Refuge

                 Program involves installation and operation of a completely renewable and
                 sustainable fuel cell system for the purpose of evaluating reliability and
                 increasing public awareness of hydrogen technologies. Activities include
                 attendance at a permitting meeting, equipment installation and
                 commissioning, and project evaluation. (Program Year 2005 budgeted
                 Program grant funds were $92,000 including carryover).

          Wind Energy

                 Program involves examining the potential for both utility and small scale
                 wind energy development. These applications will occur both offshore and in
                                                                             Schedule 2
                                                                             Page 3 of 7


             the coastal and farming regions. Activities include wind energy resource
             mapping and assessing and promoting wind energy use. (Program Year 2005
             budgeted Program grant funds were $65,000 including carryover)/

Georgia

Total Program formula grant funds awarded to Georgia for Program Year 2005 were
$1,010,000. Georgia's Program activities using formula grant funds and matching
non-Department funds included:

      Agriculture

             Program works with the various segments of the agricultural community
             to provide education, demonstration, and general information on the
             efficient use of energy. Activities are focused specifically on irrigation
             systems, poultry house operations, pesticide and fertilizer application,
             animal production systems, peanut production and curing, and rural
             housing. (Program Year 2005 budgeted Program grant funds were
             $70,000 including carryover).

      EarthCraft House Program

             Program designed to encourage the building and marketing of more
             energy efficient homes. Activities include promoting the program,
             training builders and inspectors, and inspecting the homes. (Program Year
             2005 budgeted Program grant funds were $65,000 including carryover).

      EPD Energy Staff Person

             This action allowed the State's Environmental Protection Division to hire a
             person to incorporate energy issues into environmental planning and
             program activities. Specific activities engaged in included assisting with
             the State Energy Policy and coordinating with other State agencies.
             (Program Year ̃2005 budgeted Program grant funds were $90,000
             including carryover).

      Program Management

             This action involves all activities necessary for developing the Program,
             coordinating with other agencies and organizations, and implementation
             and evaluation of programs. Specific activities include developing
             contracts, planning programs, and monitoring programs. (Program Year
             2005 budgeted Program grant funds were $579,395 including carryover).
                                                                               Schedule 2
                                                                               Page 4 of 7


        Public Information

               Program activities designed to make energy efficiency information
               available to citizens by distributing publications and managing all aspects
               of publication acquisition and inventory. Additional activities include
               responding to requests for information and carrying out data searches.
               (Program Year 2005 budgeted Program grant funds were $30,000
               including carryover).

        State of Georgia Utilities Analysis

               Program to create and populate a database of State government utility
               costs and provide analysis of more efficient energy rates to be achieved in
               numerous accounts. Activities include gathering data, estimating energy
               savings potential, negotiating new utility rates, and identifying utility
               over billing. (Program Year 2005 budgeted Program grant funds were
               $75,605including carryover).

Idaho

Total Program formula grant funds awarded to Idaho for Program Year 2005 were
$361,000. Idaho's Program activities using formula grant funds and matching
non-Department funds included:

Rural Energy Efficiency and Energy Resources

               Program provides technical assistance and education for energy efficient
               practices in irrigation, determining the feasibility of developing energy
               conservation in new agricultural areas, offering irrigation energy audits in
               promoting loan program, and providing limited technical assistance with
               diverse energy source alternatives, such as wind, solar, hydropower,
               geothermal bioenergy, and alternative fuels. Also identify new
               opportunities for energy efficiency in agriculture activities such as dairy
               audits and potato cellar control systems. Activities include conducting
               workshops, organizing conferences, demonstrating equipment, promoting
               anaerobic digestion techniques, and providing technical assistance.
               (Program Year 2005 budgeted Program grant funds were $101,912
               including carryover).

        Consumers' Education and Information

               Program is designed to increase public awareness and advance technical
               knowledge through publication of news media, fact sheets, and brochures
               on energy conservation and alternative fuels and the maintenance of an
               energy hotline. The program also provides educational experiences for
                                                                               Schedule 2
                                                                               Page 5 of 7


               schools on water and energy conservation and for residents on
               transportation and air quality issues. Activities include publishing and
               distributing a quarterly magazine, responding to hotline concerns, and
               supporting energy campaigns. (Program Year 2005 budgeted Program
               grant funds were $69,145 including carryover).

       Energy Efficiency in Buildings

               Ongoing program promotes energy efficiency in residential and
               commercial buildings. Specifically, the program provides technical
               training and assistance, promotes construction of energy efficient homes
               through home rating programs, and provides building energy efficiency
               assistance to communities through Rebuild Idaho and the Northwest
               Energy Efficiency Manufactured Home programs. Activities include
               maintaining an energy efficiency website; certifying and inspecting
               Energy Star and manufactured housing; providing Hotline call support to
               home buyers, manufacturers, and utilities; and, providing educational
               assistance to building owners. (Program Year 2005 budgeted Program
               grant funds were $85,665 including carryover).

       SEP Program Administration

               Program activities designed to facilitate State Energy Office efforts
               directly related to implementing and meeting Program responsibilities.
               Specific activities include preparing and submitting Program plans,
               monitoring the use of Program and PVE funds, preparing quarterly
               reports, and general oversight and planning activities. (Program Year
               2005 budgeted Program grant funds were $108,379 including carryover).

Pennsylvania

Total Program formula grant funds awarded to Pennsylvania for Program Year 2005 were
$1,706,000. Pennsylvania's Program activities using formula grant funds and matching
non-Department funds included:

       Pennsylvania Energy Harvest Grants

               Program provides grants to various entities within Pennsylvania that will
               emphasize renewable and clean energy projects. One grant will provide
               technical assistance to businesses in establishing environmentally
               sustainable business practices. Follow up surveys and reports will
               demonstrate energy benefits resulting from implemented measures.
               (Program Year 2005 budgeted Program grant funds were $2,868,055
               including carryover).
                                                                              Schedule 2
                                                                              Page 6 of 7


       Public Awareness

              Program is designed to increase public awareness of energy efficiency and
              pollution prevention through workshops, conferences, home improvement
              shows, Earth Day, news releases, news articles, web-based information,
              and other activities for various segments of the State population. Specific
              activities include disseminating information, participating in Earth Day
              and farm show activities, video production, and updating the Pennsylvania
              Solar Manual. (Program Year 2005 budgeted Program grant funds were
              $50,000 including carryover).

       Metal Casting Best Practice

              Program is designed to establish a Best Practices Deployment Program to
              reduce energy consumption, reduce environmental impact, and improve
              the competitiveness of Pennsylvania's metal casting industry. Activities
              include developing a website, conducting workshops, conducting best
              practices work visits, responding to requests, and reporting on the
              program. (Program Year 2005 budgeted Program grant funds were
              $62,119 including carryover).

Utah

Total Program formula grant funds awarded to Utah for Program Year 2005 were
$448,000. Utah's Program activities using formula grant funds and matching
non-Department funds included:

       Administration

              Program activities designed to facilitate the State energy office's efforts
              directly related to implementing and meeting Program goals. Specific
              activities include supporting State programs for buildings, transportation,
              education, and utilities. (Program Year 2005 budgeted Program grant
              funds were $348,309 including carryover).

       School Education K-12

              Program designed to promote energy efficiency in schools by training
              teachers and distributing energy materials. Activities include providing
              energy training to teachers, distributing energy materials, implementing
              student debate, operating the Energy Action in Schools, and conducting
              Energy Smart presentations. (Program Year 2005 budgeted Program grant
              funds were $55,000 including carryover).
                                                                        Schedule 2
                                                                        Page 7 of 7


Transportation Clean Cities Program Delivery

       Program was designed to increase use of alternative fuel vehicles within
       the Wasatch Front by establishing a cost-effective, self-sustaining
       alternative fuel vehicle infrastructure. Specific activities include holding
       stakeholders and committee meetings, updating website, and distributing
       brochures. (Program Year 2005 budgeted Program grant funds were
       $60,000 including carryover).

Buildings – Codes

       Program promotes incorporation of the latest energy efficiency
       technologies in new buildings and the retrofitting of existing buildings.
       Activities include participating in the State Building Energy Efficiency
       Program, operating a hotline, improving public awareness, reviewing
       compliance with school building plans, working on code enforcement, and
       providing training. (Program Year 2005 budgeted Program grant funds
       were $40,000 including carryover).

Renewables

       Program provides information, technical assistance, and demonstrations to
       prospective users of small scale renewable resources. The program would
       install four 50-meter towers with anemometers and related equipment to
       augment the Utah Anemometer Loan Program and assess Utah's wind
       resource potential. Specific activities include holding workshops, loaning
       anemometers, developing clean energy working groups, and participating
       on the Community Clean Energy Campaign. (Program Year 2005
       budgeted Program grant funds were $123,091 including carryover).
                                                             IG Report No. OAS-M-06-05

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers’
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
